No.
IN THE SUPREME COURT OF THE UNITED STATES
COLORADO DEPARTMENT OF LABOR AND EMPLOYMENT, DIVISION
OF WORKERS’ COMPENSATION,
v.

Petitioner

DAMI HOSPITALITY, LLC
Respondent,
APPLICATION FOR AN EXTENSION OF TIME TO FILE PETITION FOR WRIT
OF CERTIORARI

PHILIP J. WEISER
Attorney General
ERIC R. OLSON
Solicitor General
Counsel of Record
Office of the Attorney General
Colorado Department of Law
1300 Broadway, 10th Floor
Denver, CO 80203
Telephone: (720) 508-6548
eric.olson@coag.gov
Counsel for Petitioner

To the Honorable Justice Sonia Sotomayor, Circuit Justice for the United States
Court of Appeals for the Tenth Circuit.

In accordance with Rule 13.5 of the Rules of this Court, Petitioner Colorado
Department of Labor and Employment, Division of Workers’ Compensation,
respectfully requests an extension of 60 days to file a petition for writ of certiorari up
to and including Friday, November 15, 2019.
JUDGMENT SOUGHT TO BE REVIEWED
Petitioner seeks review of the Colorado Supreme Court’s decision in Colo. Dep’t
of Labor & Emp., Div. of Workers’ Compensation. v. Dami Hospitality., LLC,
17SC200, 442 P.3d 94 (Colo. 2019). The opinion is attached as Exhibit A. The
Colorado Supreme Court modified its opinion and, as modified, denied the
Department’s timely motion for rehearing on June 17, 2019.
JURISDICTION
The Court has jurisdiction under 28 U.S.C. § 1257(a). Absent extension, the
time for filing a petition for writ of certiorari will expire on September 16, 2019. This
application is filed at least 10 days before that date.
REASONS JUSTIFYING AN EXTENSION OF TIME
This case presents a serious candidate for review. The Colorado Supreme Court
held that the Eighth Amendment’s Excessive Fines Clause applies to corporations
and, that in imposing any fine, the Eighth Amendment requires consideration of a
defendant’s ability to pay the fine.

1

This decision deepens a significant split among the federal courts and state
courts of last resort regarding whether the Excessive Fines analysis includes
consideration of a defendant’s ability to pay. Many circuits and state supreme courts
do not consider the financial means of a defendant as part of the Excessive Fines
analysis. See, e.g., United States v. Carlyle, 712 F. App’x 862, 864 (11th Cir. 2017)
(“The impact of the fine on the individual defendant is not considered.”); United States
v. Smith, 656 F.3d 821, 828–29 (8th Cir. 2011) (holding a defendant’s indigence
irrelevant to the excessiveness inquiry); United States v. Dubose, 146 F.3d 1141, 1146
(9th Cir. 1998) (“A defendant’s financial condition does not . . . limit a court’s
discretion in fashioning an appropriate sanction” under the Eighth Amendment);
State v. Izzolena, 609 N.W.2d 541, 551 (Iowa 2000) (“The manner in which the amount
of a particular fine impacts a particular offender is not the focus of the test.”); State
v. Webb, 856 N.W.2d 171, 176 (S.D. 2014) (rejecting “consideration of [defendant’s]
ability to pay” under the Eighth Amendment).
Other circuits and state supreme courts, however, hold that the Excessive
Fines analysis should consider the defendant’s ability to pay a fine. See, e.g., United
States v. Levesque, 546 F.3d 78, 84 (1st Cir. 2008) (holding “a court should consider a
defendant’s argument that a forfeiture is excessive under the Eighth Amendment
when it effectively would deprive the defendant of his or her livelihood,” and noting
that “such ruinous monetary punishments are exactly the sort that motivated . . . the
Excessive Fines Clause”); United States v. Viloski, 814 F.3d 104, 111–12 (2d Cir. 2016)
(holding “courts may consider . . . whether the forfeiture would deprive the defendant

2

of his livelihood, i.e., his ‘future ability to earn a living.’”) (quoting Levesque, 546 F.3d
at 85); Commonwealth v. 1997 Chevrolet, 160 A.3d 153, 192 (Pa. 2017) (requiring
consideration of “the harm forfeiture would bring to the owner”).
In Timbs v. Indiana, 139 S. Ct. 682, 688 (2019), the Court made clear that the
Excessive Fines Clause applied to the states, but expressly left open the question of
whether a defendant’s ability to pay must be considered. This case presents an ideal
vehicle to address that question. The issue was raised, considered, and is
determinative of the outcome below.
Here, Respondent failed to provide workers’ compensation coverage several
times as required by Colorado law. After resolving the first violation, Respondent let
coverage lapse again just two months later, and did not provide the required coverage
for 1,698 days. Ex. A ¶ 10. After the Department began an enforcement action,
Respondent conceded the violation but argued that the statutory fine (of $250 to $500
per day for a second violation) violated the Excessive Fines Clause. Id. ¶ 11–17.
The Colorado Supreme Court held that the Excessive Fines Clause applied to
corporations and that “ability to pay” is an “appropriate element of the Excessive
Fines Clause gross disproportionality analysis,” because “[a] fine that would
bankrupt a person or put a company out of business would be a substantially more
onerous fine than one that did not.” Id. ¶ 31. Based on this analysis, the Colorado
Supreme Court vacated the fine and ordered the Department to determine
Respondent’s ability to pay before imposing any fine. Id. ¶¶ 38–39.

3

The Department seeks an additional 60 days to prepare the petition for
certiorari for two reasons. First, this case touches on many elements of the State’s
authority to regulate Coloradans and preparing the petition for certiorari requires
extraordinary coordination among many different state agencies. This coordination
takes time, particularly during the summer months when many decision makers are
unavailable due to vacation. Second, counsel for the State has significant other
matters in this Court, the Tenth Circuit, and the Colorado Supreme Court, including
presenting oral argument before the Colorado Supreme Court on September 17, that
require substantial time. The Department and counsel need the additional time to
properly prepare a petition for certiorari.
*

*

*

The Department respectfully requests that an order be entered extending the
time for it to file a petition for a writ of certiorari for 60 days, up to and including
November 15, 2019.

4

Dated: August 19, 2019

Respectfully Submitted,
PHILIP J. WEISER
Attorney General

/s/ Eric R. Olson
ERIC R. OLSON
Solicitor General
Counsel of Record
Office of the Attorney General
Colorado Department of Law
1300 Broadway, 10th Floor
Denver, CO 80203
Telephone: (720) 508-6548
eric.olson@coag.gov
Counsel for Applicant

5

